     Department of Homeland Security





     Legal Responsibility Issues Related to FEMA Public 

     Assistance Grant Funds Awarded to Orleans Parish 

     Criminal Sheriff’s Office, Orleans Parish, Louisiana





DD-12-12                                             May 2012

                    ~B;,               OFFICE OF INSPECTOR GENERAL
                      0:<.;,... .,.®     Department of Homeland Security
                                         Washington, DC 205281 www.oig.dhs.gov




                                             MAY 3 a 2012

MEMORANDUM FOR:                          Tony Robinson
                                            ing Regional Administrator, Region VI
                                         F   er~ 1 ~r~               gem     t Agency

FROM:                     "--~'"""D~.':!M;'· -l~{
                                         Ass i ta nt Inspector Gene r I
                                         Office of Emergency Management Oversight

SUBJECT:                                 Legal Responsibility Issues Related to FEMA Public
                                         Assistance Grant Funds Awarded to Orleans Parish
                                         Criminal Sheriff's Office, Orleans Parish, Louisiana
                                         FEMA Disaster Number 1603-0R-LA
                                         Audit Report 00-12-12

We are currently auditing $178 million of Federal Emergency Management Agency
(FEMA) public assistance (PA) funds awarded to the Orleans Parish Criminal Sheriff's
Office (OPCSO) in Orleans Parish, louisiana, (Public Assistance Identification Number
071-UPP9W-00). The louisiana Governor's Office of Homeland Security and Emergency
Preparedness (GOHSEP), a FEMA grantee, awarded these funds to OPCSO for
permanent disaster recovery work related to Hurricane Katrina, which occurred in
August 2005. The purpose of this memorandum is to advise you of legal responsibility
issues related to $104.5 million of OPCSO's award that require your immediate
attention.

As discussed below, FEMA should disallow $97.9 million of the $104.5 million obligated
for work that was related to or funded from projects related to properties that OPCSO
               1
does not own. FEMA should also stop obligating additional Federal funds related to
properties for which legal responsibility is disputed; and, if OPCSO and the City of New
Orleans (City) do not reach a legally binding agreement regarding ownership and legal
responsibility for these properties within 6 months, require GOHSEP to recover all
Federal funds paid to date to the two entities for these properties.




1   We did not question the remaining $6.65 million that related to properties that OPCSO owned.
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   We are conducting this performance audit pursuant to the Inspector General Act of
   1978, as amended, and according to generally accepted government auditing standards.
   Our overall objective is to determine whether OPCSO accounted for and expended
   FEMA PA funds according to Federal regulations and FEMA guidelines. At the conclusion
   of our audit, we plan to issue our complete audit report, including any additional
   findings and recommendations.

   Background

   OPCSO operates jail facilities to provide care, custody, and control of incarcerated
   persons in Orleans Parish, Louisiana. The Sheriff executes all writs, orders, and
   processes of the Traffic, Municipal, and Criminal Courts. The City is required to provide
   OPCSO with jail facilities, per Louisiana Statutes and Court Orders. OPCSO receives a
   rate of $22.39 per inmate per night, which includes routine maintenance fees for
   properties owned by the City.

   Legal Responsibility for Work

   FEMA obligated $104.5 million under 14 projects for work that was related to or funded
   from projects related to properties that OPCSO does not own. The City owns most of
   the properties that OPCSO uses for its operations, but does not have a written
   agreement with OPCSO regarding their use. As a result, OPCSO has incurred, or may
   incur, about $103 million of costs that are not eligible because the scope of work was
   not its legal responsibility. Further, neither FEMA nor GOHSEP knows for sure who is
   legally responsible for obtaining and maintaining insurance on damaged facilities, which
   is a condition for receiving PA funds.

   Federal regulation 44 CFR 206.223(a)(3) requires the subgrantee to own and be legally
   responsible for the facility to be eligible for federal disaster assistance. Also, the Public
   Assistance Guide (FEMA 322, October 1999, p. 25) states that an eligible applicant must
   be legally responsible for the damaged facility at the time of the disaster. If the
   applicant is the lessee (tenant), repairs to that facility are not eligible unless the lease
   specifically states that the lessee is responsible for the repairs. The guide further states
   that, in the absence of a written agreement or lease, the owner of the property, not the
   occupant, is assumed to be responsible for the repairs. Accordingly, we question $97.9
   million for work that was not OPCSO’s legal responsibility.

   This condition occurred because neither FEMA nor GOHSEP determined which entity
   was legally responsible before approving work on the properties. FEMA officials said
   that, during project development, they rely on the subgrantee’s word to determine
   ownership. GOHSEP officials said that they rely on FEMA to tell them if a subgrantee is


www.oig.dhs.gov                                  2                                         DD-12-12
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   the owner of or has legal responsibility for a facility. Relying on the subgrantee’s word,
   rather than legal documentation, to determine ownership provides no assurance that
   Federal funds are going to an eligible entity. FEMA officials acknowledged that legal
   disputes exist between OPCSO and the City regarding property ownership and said that
   they are still working with OPCSO to resolve the problems.

   We requested proof of ownership or any type of lease or written agreement regarding
   legal responsibility for the 14 projects we question from the City and OPCSO. City
   officials have not responded to our request. OPCSO provided us with several deeds
   indicating OPCSO’s ownership of several properties, but the deeds were not related to
   the projects we question. We also obtained a House Judiciary Committee sworn
   testimony from April 10, 2007, in which the current Sheriff of Orleans Parish stated that
   the City owns three of the largest properties that OPCSO operates. Therefore, because
   no one provided us proof of ownership, we relied on the Orleans Parish Tax Assessor’s
   (Assessor) records to determine the owner of record for the properties related to these
   projects. Table 1 summarizes our questioned costs and relevant information about the
   14 projects.

                     Table 1. Costs Questioned for Lack of Legal Responsibility

                     Name of             Property        Description of     Amount            Amount
    Project          Property            Address             Work          Obligated         Questioned
                                                        Replacement of
     14071         Main Kitchen        2801 Perdido        Property        $ 62,646,329      $ 62,646,329
                                                         Architectural
                                                         &Engineering
     17427         Main Kitchen        2801 Perdido          Fees                 616,848         616,848
                      House of                             Laundry
      361            Detention          2700 Tulane       Equipment               144,011         144,011
                       Intake                           Replacement of
      926            Processing         2700 Tulane        Property           8,671,323         8,671,323
                                                         Repair Storm
      930          Templeman V         2800 Gravier        Damage             5,681,593         5,681,593
     2279          Templeman V         3100 Perdido     Security System         329,630           329,630
                   Maintenance                          Replacement of
     1201            Building           739 S. Lopez       Property           3,709,618         3,709,618
                                                         Demolition of
     1267           Warehouse          2900 Perdido        Property               300,119         300,119
                                                        Replacement of
     5912         Training Building     225 S. Broad       Property               117,394         117,394


www.oig.dhs.gov                                     3                                       DD-12-12
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


                                                      Replacement of
     16353        Mechanical Shop     723 S. Lopez        Property           1,845,292         1,845,292
                   Administration                     Replacement of
     19541           Building         819 S. Broad        Property           7,739,783         5,785,887
                                                       Demolition of
     5757           Fisk Building    716 S. Rendon        Property           1,561,535         1,561,535
     19545             Various          Various       Alternate Project        401,338           329,698
                                                           Project
     18284            Various           Various         Management          10,755,777         6,129,276

      Totals                                                              $104,520,590    $97,868,553

   Projects 14071 and 17427

   FEMA obligated $62,646,329 under Project 14071 for the replacement of the Main
   Kitchen and $616,848 under Project 17427 for architectural and engineering (A&E) fees
   for the Main Kitchen. The Main Kitchen is located at 2801 Perdido Street, and the City is
   the owner of record, according to the Assessor’s records. Therefore, we question the
   funds obligated under these two projects. Of the $62.6 million obligated for Project
   14071, $17.2 million was transferred from Project 1267, which is discussed below.

   Project 361

   FEMA obligated $144,011 for the replacement of laundry equipment in the House of
   Detention located at 2700 Tulane. According to the Assessor’s records, the City is the
   owner of record for this property. We asked OPCSO to provide proof of ownership of
   the equipment, but it could not provide adequate support of ownership. Therefore, we
   question the $144,011 obligated.

   Project 926

   FEMA obligated $8,671,323 under Project 926 for the replacement of the intake
   processing center located at 2700 Tulane. The City is the owner of record, according to
   the Assessor’s records. Therefore, we question the $8,671,323 currently obligated for
   this project. Pending final approval, FEMA intends to deobligate $8,199,702 from this
   project (Project 926) and obligate the funds to Project 4876 for the replacement of
   Templeman III and IV, a facility for which OPCSO is the owner of record. This is an
   example of how FEMA is comingling funds between projects owned by different entities.




www.oig.dhs.gov                                   4                                      DD-12-12
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   Projects 930 and 2279

   FEMA obligated $5,681,593 under Project 930 to repair the Templeman V property and
   listed the address in the project worksheet as 2800 Gravier. FEMA obligated $329,630
   under Project 2279 to replace the security system in the Templeman V property and
   listed the address in the project worksheet as 3100 Perdido. According to the Assessor’s
   records, the City is the owner of record for both these addresses. FEMA identified the
   property as being owned and insured by the City, not OPCSO, yet FEMA obligated the
   funds under OPCSO’s award. During the conclusion of our audit fieldwork, OPCSO
   provided documents indicating that it may own Templeman V, but during one of our
   prior audits of the City,2 the City provided documentation indicating that it insured
   Templeman V. We have not yet determined whether the City or OPCSO received any
   insurance proceeds; however, the City is the owner of record for the Templeman V
   facility; therefore, we question the funds obligated for Projects 930 and 2279.

   Projects 1201 and 1267

   FEMA obligated $3,709,618 under Project 1201 to replace a maintenance building used
   by OPCSO located at 739 South Lopez Street. The City is the owner of record, according
   to the Assessor’s records. Therefore, we question $3,709,618. We also question the
   $300,119 that remains obligated under Project 1267 for the cost of demolishing this
   building. However, we have additional concerns about Project 1267 that FEMA should
   consider. FEMA originally obligated $17,196,176 under Project 1267 for the
   replacement of a single-story warehouse, located at 2900 Perdido, measuring 69,372
   square feet (FEMA later transferred the majority of these funds to Project 14071, which
   is discussed above). According to the Assessor’s records, the size of the lot is 31,015
   square feet. Therefore, if FEMA decides to transfer the funds (deobligate and reobligate
   to another project) obligated for either of these projects (1201 and 1267), FEMA should
   first reassess the data it used in estimating the demolition and replacement costs for the
   warehouse, because a single-story warehouse measuring 69,372 square feet cannot fit
   on a lot measuring 31,015 square feet.

   Project 5912

   FEMA obligated $117,394 for the repair of a training building located at 225 South
   Broad. The City is the owner of record, according to the Assessor’s records; therefore,
   we question the $117,394.
   Project 16353

   2
    Audit Report Number DD-09-17, City of New Orleans Community Correctional Center, issued
   September 30, 2009.


www.oig.dhs.gov                                     5                                         DD-12-12
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   FEMA obligated $1,845,292 for the replacement of a mechanical shop located at 723
   South Lopez. The City is the owner of record, according to the Assessor’s records;
   therefore, we question the $1,845,292.

   Projects 19541 and 5757

   FEMA obligated $7,739,783 as an alternate project under Project 19541 for replacement
   of the administration building located at 819 S. Broad. OPCSO is the owner of record,
   according to the Assessor’s records. However, Project 19541 is a combination of 10
   projects or parts of projects; therefore, the 10 projects were the source of funds for
   Project 19541. One of the 10 projects was Project 5757, from which FEMA transferred
   $5,785,887 to add funds to Project 19541. Project 5757 currently obligates $1,561,535
   for the demolition of the Fisk/Work Release building located at 716 South Rendon,
   which according to the Assessor’s records is the City’s property. Therefore, the
   $5,785,887 transferred from Project 5757 to Project 19541 is ineligible because the
   source of the funds was a City property. We also question the $1,561,535 currently
   obligated for Project 5757 because the Fisk/Work Release building belongs to the City.

   Project 19545

   FEMA obligated $401,338 as an alternate project under Project 19545 by transferring
   funds from five previously obligated projects. Of the $401,338, $329,698 was
   transferred from two projects that related to properties the City owned. Project 13964
   ($192,640) was for contents of the Fisk/Work Release property; and Project 4735
   ($137,058) was to repair the commissary located in the Main Kitchen. According to the
   Assessor’s records, the City is the owner of record for these two properties; therefore
   we question $329,698 ($192,640 plus $137,058).

   Project 18284

   FEMA obligated $10,755,777 under Project 18284 for project management costs
   associated with the projects listed in table 1 and other projects. Of the $10,755,777, we
   question $6,129,276 for project management costs associated with projects that are not
   OPCSO’s legal responsibility.

   Longstanding Legal Responsibility Issues

   According to OPCSO officials, they have been fighting with the City over legal
   responsibility issues since the 1960s. The City is responsible for providing properties to
   OPCSO for jails to house incarcerated persons. OPCSO officials said that they are the
   defendants in any lawsuit that questions the proper care, custody, or control of


www.oig.dhs.gov                                 6                                        DD-12-12
                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


   prisoners. In 1969, prisoners initiated a Federal class action lawsuit alleging
   unconstitutional conditions and practices at the Orleans Parish Prison. In 2003, the
   Sheriff sought court action to force the City to increase funding for the care of prisoners.
   As a result of this lawsuit, the City pays OPCSO per diem payments of $22.39 per inmate.
   However, OPCSO officials stated that they sometimes seek additional funding from the
   City because the cost of operations is not directly related to the number of prisoners.

   OPCSO officials contend that, because they are responsible for prisoners, they are also
   responsible for maintenance and repairs to the buildings that house prisoners.
   However, there is no written agreement between the City and OPCSO regarding funding
   obligations and legal responsibility for the repair of damaged facilities. GOHSEP officials
   have tried unsuccessfully to get the two parties to work out a written agreement, and
   therefore believe that a court of law should settle these longstanding issues.

   This is not the first time we have reported on OPCSO’s legal responsibilities. We
   previously audited funds awarded to OPCSO for emergency protective measures
   necessitated by Hurricane Katrina.3 In the resulting report, we questioned $1.8 million
   under Project 15556 and $422,819 under Project 16871 for work on two facilities that
   were the City’s responsibility, not OPCSO’s. FEMA agreed with our audit
   recommendation regarding Project 15556 and deobligated the associated $1.8 million.
   FEMA has requested additional time to respond to other recommendations in our prior
   report.

   Unless these legal issues are resolved, we believe that FEMA and GOHSEP will continue
   to face problems in managing and administering subgrants to OPCSO and the City.
   Because ownership and legal responsibilities are unclear, neither FEMA nor GOHSEP
   knows who is legally responsible for obtaining and maintaining insurance on damaged
   facilities, which is a condition of funding for receiving public assistance.4 We have not
   completed our review of insurance issues, but we are working with FEMA, GOHSEP, and
   OPCSO to determine how much insurance was in place at the time of the disaster,
   whether insurance proceeds have been received and applied to the projects we
   question, and whether the legally responsible entity has obtained and maintained
   adequate insurance since the disaster occurred.

   3
     We previously audited $41.4 million awarded to OPCSO for emergency protective measures (Category B
   work) resulting from Hurricane Katrina (Audit Report Number DD-11-24, FEMA Public Assistance Grant
   Funds Awarded to Orleans Parish Criminal Sheriff’s Office, issued September 27, 2011).
   4
     Section 311 of the Robert T. Stafford Disaster Relief and Emergency Assistance Act, as amended, requires
   recipients to obtain and maintain insurance coverage to protect against future losses to any property to
   be replaced, restored, repaired, or constructed with Federal assistance. Further, the Public Assistance
   Guide (p. 97) states that, as a condition for receiving public assistance for a facility, such coverage must, at
   minimum, be in the amount of the estimated eligible project costs for that structure before any reduction.


www.oig.dhs.gov                                           7                                                 DD-12-12
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



   Another problem is that both OPCSO and the City are still negotiating with FEMA about
   how to repair or replace several facilities related to law enforcement and housing
   prisoners. As a result, these projects are in a constant state of flux because FEMA is
   comingling projects, approving alternate projects, and transferring funds among
   projects. Thus, Federal funds become difficult to trace back to the original projects for
   which the funds were estimated and approved.

   FEMA should disallow currently approved Federal funds, and not approve any more
   funds, related to properties for which legal responsibility is disputed. Further, if OPCSO
   and the City do not reach a legally binding agreement regarding ownership and legal
   responsibility for these properties soon, FEMA should require GOHSEP to recover all
   Federal funds paid to date to the two entities for these properties.




www.oig.dhs.gov                                8                                         DD-12-12
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


                                   RECOMMENDATIONS

   We recommend the Acting Regional Administrator, FEMA Region VI:

           Recommendation #1: Disallow $97,868,553 of funds obligated for work that
           was either related to properties that OPCSO does not own or funded from
           projects related to properties that OPCSO does not own.

           Recommendation #2: Cease and desist the obligation of additional Federal
           funds related to properties for which legal responsibility is disputed.

           Recommendation #3: If OPCSO and the City do not reach a legally binding
           agreement regarding ownership and legal responsibility for these properties
           within 6 months, require GOHSEP to recover all Federal funds paid to date to the
           two entities for these properties.


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

   We discussed the results of our audit with FEMA, GOHSEP, and OPCSO during our audit
   and included their comments in this report, as appropriate. We also provided copies of
   our draft report in advance to these officials and discussed it at exit conferences held
   with FEMA on March 19, 2012, and OPCSO and GOHSEP officials on March 20, 2012.
   FEMA officials generally agreed with our findings and recommendations.

   Within 90 days of the date of this memorandum, please provide our office with a
   written response that includes your (1) agreement or disagreement, (2) corrective
   action plan, and (3) target completion date for each recommendation. Also, please
   include responsible parties and any other supporting documentation necessary to
   inform us about the current status of the recommendation. Until your response is
   received and evaluated, the recommendations will be considered open and unresolved.

   Consistent with our responsibility under the Inspector General Act, we are providing
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination. Significant contributors to this
   report were Tonda Hadley, Judy Martinez, Ronald Jackson, Bryan Chauvin, and
   Natalie Fussell.




www.oig.dhs.gov                               9                                        DD-12-12
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Should you have questions concerning this report, please contact me at (202) 254-4100
   or Tonda Hadley at (214) 436-5200.


   cc:     	Administrator, FEMA
           Director, Risk Management and Compliance, FEMA Office of Chief Financial
           Officer
           Executive Director, FEMA Louisiana Recovery Office
           Audit Liaison, FEMA Louisiana Recovery Office
           Audit Liaison, FEMA Region VI
           Audit Liaison, FEMA (Job Code G-11-060)
           Audit Liaison, DHS




www.oig.dhs.gov                              10	                                      DD-12-12
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
